HHS/OIG-Audit--"Co-located Intergenerational Activities In Department of Health and Human Services' Programs, (A-05-94-00009)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Co-located Intergenerational Activities In Department of Health and
Human Services' Programs," (A-05-94-00009)
January 11, 1995
Complete Text of Report is available in PDF format
(2.84 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report notes that the Administration on Aging (AoA) and the Administration
for Children and Families (ACF) could take advantage of many benefits offered
by intergenerational activities by encouraging the co-location of programs,
such as Head Start and senior centers, on a voluntary basis. We are recommending
that AoA and ACF examine whether the demonstrated successes in co-locating programs
and facilities in the private and public sector can be more broadly applied
on a voluntary basis. The AoA and ACF generally agreed with our report and its
conclusions and recommendations.